CERTIFICATE OF SERVICE
Donald Henderson Scott; Carolyn Yvonne Scott;
Petitioners
v.
U.S. Bank National Association as Trustee, for Bayview Financial Mortgage PassThrough Certificates, Series 2005; M&T Bank; Bayview Loan Servicing LLC; David
L. Bowan Southlaw, P.C.; Rob Clifton; Anderson Law, LLC; Mortgage Electronic
Registration Systems, Inc.; Mila Homes, LLC; Corinthian Mortgage Corporation;
Security Land Title Company;
Respondents
On this 17th day of January 2020, the undersigned, hereby certify that three (3) copies
of the petition for writ of certiorari was served by Priority Mail on the following party:
Anderson Law, LLC
Julie A. Anderson
4006 Central Street
Kansas City, MO 64111
816-931-2207
Attorney for Respondents:
Anderson Law, LLC;
Mila Homes, LLC; and
Rob Clifton
Donald H. Scott
PO Box 901284
Kansas City, MO 64190

RECEIVED
JAN 2 2 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

